<html>
<title> - FOSTERING WOMEN'S ENTREPRENEURIAL SUCCESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








               FOSTERING WOMEN'S ENTREPRENEURIAL SUCCESS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON HEALTH AND TECHNOLOGY

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 12, 2017

                               __________

       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
			                               

            Small Business Committee Document Number 115-040
              Available via the GPO Website: www.fdsys.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
27-069                    WASHINGTON : 2018                 
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                          DON BACON, Nebraska
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Aumua Amata Coleman Radewagen...............................     1
Hon. Al Lawson, Jr...............................................     2

                               WITNESSES

Janice Green, RN, BSN, MBA, President & CEO, Jancare Private 
  Health Service, Inc., Fishkill, NY.............................     4
Ms. Antonella Pianalto, President and CEO, Association of Women's 
  Business Centers, Washington, DC...............................     5
Ms. Hester Clark, President, Hester Group, Jacksonville, FL......     7
Ms. Jeannette King, President & CEO, Strategic Resolution 
  Experts, Inc., Martinsburg, WV.................................     8

                                APPENDIX

Prepared Statements:
    Janice Green, RN, BSN, MBA, President & CEO, Jancare Private 
      Health Service, Inc., Fishkill, NY.........................    22
    Ms. Antonella Pianalto, President and CEO, Association of 
      Women's Business Centers, Washington, DC...................    24
    Ms. Hester Clark, President, Hester Group, Jacksonville, FL..    34
    Ms. Jeannette King, President & CEO, Strategic Resolution 
      Experts, Inc., Martinsburg, WV.............................    36
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
               FOSTERING WOMEN'S ENTREPRENEURIAL SUCCESS

                              ----------                              


                       THURSDAY, OCTOBER 12, 2017

                  House of Representatives,
               Committee on Small Business,
             Subcommittee on Health and Technology,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Aumua Amata 
Coleman Radewagen [chairman of the Subcommittee] presiding.
    Present: Representatives Radewagen, Luetkemeyer, Brat, 
Marshall, and Lawson.
    Chairwoman RADEWAGEN. Talofa. Good morning. I call today's 
Subcommittee on Health and Technology hearing to order.
    I would like to thank everyone for joining us today. As 
October is National Women's Small Business Month, today, our 
Subcommittee will highlight the outstanding impact women 
entrepreneurs have made on the United States economy and the 
remarkable growth women-owned small businesses have generated 
over the last decade.
    It is estimated that, in 2016, there were 11.3 million 
women-owned businesses that employed nearly 9 million people 
and generated over 1.6 trillion dollars. Between 2007 and 2016, 
women-owned businesses increased by approximately 45 percent. 
This means that women-owned businesses grew roughly five times 
faster than the national average.
    Despite this remarkable increase, we continue to see a 
significant difference in the number of women- and men-owned 
businesses in the United States. Currently, women-owned 
businesses only represent roughly 38 percent of all businesses.
    Today, we ask, what factors are contributing to this gap? 
While women entrepreneurs face many challenges, one major issue 
women owners face is access to adequate financing 
opportunities.
    Men typically launch their businesses with twice the 
capital women do, and less than 10 percent of all venture funds 
are granted to women-led businesses.
    The matter of access to capital is of particular concern to 
me, as it is a persistent issue among my constituents in 
American Samoa.
    Numerous organizations, nonprofits, and companies are 
working to address the capital challenge women entrepreneurs 
face through advocacy, education, and outreach.
    The Small Business Administration's Women's Business 
Centers and the SCORE are excellent examples of these types of 
programs. Despite the wonderful work of these organizations, 
women entrepreneurs still face significant challenges when 
starting, growing, and scaling their businesses.
    Today, we will hear from an outstanding panel of witnesses 
who will shed light on the challenges women entrepreneurs face, 
the resources currently available, and the areas where existing 
resources could be expanded to benefit women's businesses. The 
personal experiences of many of our panelists are stories of 
remarkable perseverance and strength that have resulted in 
success. I look forward to learning from each of you.
    I now yield to Ranking Member Lawson for his opening 
statement.
    Mr. LAWSON. Thank you, Madam Chair, and good morning.
    I am very happy and glad that we have taken the time today 
about a very important topic concerning the National Women's 
Small Business Month.
    Fostering women entrepreneurs' success is very critical to 
the prosperity of the United States. Women entrepreneurs play a 
significant role in U.S. economy. As our chairman said earlier, 
they own about 9 million firms, generating either $1.5 trillion 
or $1.6 trillion in revenue, which employ over 8 or 9 million 
workers.
    Despite these impressive numbers, women-owned businesses 
still face those barriers, as we discussed earlier--is access 
to capital. In other hearings, we have heard about access to 
capital, how important it is to jump start these businesses.
    Just like many other businesses, this Committee has heard 
access to capital as a main topic challenging--challenge for 
women. As we talked about, on the average, men start their 
business with twice as much resources. So I won't try to rehash 
that. And one of the reasons why I know is because I have been 
in business for 36 years, and I remember going to the financial 
institution.
    Women also are one-third as likely to access financing 
through venture capital angel investment. In fact, only 10 
percent of all global venture dollars between 2010 and 2015 
went to startups with at least one woman founder. We must do 
better. And that is one of the reasons why we have this 
hearing.
    Not only must women worry about running business, many are 
more likely to take on caretaker's responsibilities, for both 
children and relatives, creating an additional obstacle to 
entrepreneurship. Rather than ignoring the need for the 
individuals, we should embrace them and recognize how they 
sacrifice to contribute to our economy.
    Congress needs to consider how simple policies, policy 
changes, like paid family leave and affordable care, childcare, 
is so critical to creating jobs and spurring the economy. Women 
business owners offer a valuable contribution to our economy, 
but they need help.
    Today's hearing offers the opportunity to discuss how 
Congress can help our Nation's women's entrepreneurship 
prosper.
    I look forward to hearing from our witnesses. We have an 
outstanding group before us today. I want to thank the 
witnesses for being here and taking this most important role 
that is going to help many people in America.
    Thank you very much. And I yield back to our chairman.
    Chairwoman RADEWAGEN. Thank you.
    I would like to take a moment to explain the timing lights 
for you. You will each have 5 minutes to deliver your 
testimony.
    The light will start out as green. When you have 1 minute 
remaining, the light will turn yellow. Finally, at the end of 
your 5 minutes, it will turn red, and I ask that you please try 
to adhere to that time limit.
    Our first witness is Ms. Janice Green. Ms. Green is the 
president and CEO of Jancare Private Health Services Inc., a 
private home healthcare provider in Fishkill, New York.
    After years of experiences as a registered nurse, Ms. Green 
decided to translate the knowledge and skill she had acquired 
into starting and running her own successful home care agency.
    Thank you, Ms. Green, for being here today.
    Our next witness is Ms. Antonella Pianalto. Ms. Pianalto 
serves as the president and CEO of the Association of Women's 
Business Centers, working to provide leadership and support to 
a network of over 100 Women's Business Centers nationwide.
    Prior to her time with AWBC, Ms. Pianalto has served as 
vice president of government affairs for American Express, and 
as a senior adviser to the U.S. Ambassador to the United 
Kingdom, as a Deputy Assistant to the President for 
Presidential Personnel, and as an Associate Administrator for 
Management and Administration for the Small Business 
Administration.
    Thank you for being here, Ms. Pianalto.
    I now yield to our ranking member for the introduction of 
the next witness.
    Mr. LAWSON. Thank you. It is my pleasure to introduce Ms. 
Hester Clark, the president and founder of Hester Group 
Headquarters in Jacksonville, Florida, out of my district.
    Hester Group is a women-owned small business that provides 
professional service to Federal agencies. In 2011, Ms. Clark 
was recognized by American Express OPEN as the 2011 Women 
Government Contractor of the Year, and the Hester Group has 
been recognized as one of the top 50 women-owned businesses in 
Jacksonville, Florida.
    Welcome, Ms. Clark, and thank you for testifying today.
    Chairwoman RADEWAGEN. Our last witness is Ms. Jeannette 
King. Ms. King is held up in traffic but should be joining us 
momentarily.
    Ms. King is the president and CEO of Strategic Resolution 
Experts, Inc., a management consulting and IT governance firm 
located in Martinsburg, West Virginia. Ms. King has been 
recognized numerous times for her success as a small business 
owner, including named the Small Business Administration's 2015 
Small Business Person of the Year for the State of West 
Virginia.
    With that, Ms. Green, you are now recognized for 5 minutes.
    You may begin.

  STATEMENTS OF JANICE GREEN, RN, BSN, MBA, PRESIDENT & CEO, 
   JANCARE PRIVATE HEALTH SERVICE, INC., FISHKILL, NEW YORK; 
 ANTONELLA PIANALTO, PRESIDENT AND CEO, ASSOCIATION OF WOMEN'S 
 BUSINESS CENTERS, WASHINGTON, D.C.; HESTER CLARK, PRESIDENT, 
   HESTER GROUP, JACKSONVILLE, FLORIDA; AND JEANNETTE KING, 
     PRESIDENT & CEO, STRATEGIC RESOLUTION EXPERTS, INC., 
                   MARTINSBURG, WEST VIRGINIA

            STATEMENT OF JANICE GREEN, RN, BSN, MBA

    Ms. GREEN. Good morning. Thank you, Chairman Radewagen, 
Ranking Member Lawson, and distinguished members of the 
Committee for the opportunity to share this testimony with you.
    My name is Janice Green, and I am a registered nurse with 
more than 10 years of experience in medical and surgical care 
and the CEO at Jancare Private Health Service.
    As a nurse, I had the opportunity to take care of a female 
patient with stage IV cancer. After her death, her husband, a 
lawyer, was impressed by my care and approach and insisted that 
I started my own nursing care agency. I took his advice, and in 
2014, I formed Jancare Private Health Service.
    Jancare is on the cutting edge as a nursing care agency. 
Our vision is to provide outstanding care with compassion and 
dignity to surgical patients and seniors in the privacy of 
their own home.
    My role as a clinical nurse care coordinator is to oversee 
the care of individuals who need medical or nonmedical care 
through a hands-on approach by implementing a strategic care 
plan specifically tailored to each client's specific need. 
Jancare works with families, attorneys, geriatric care 
managers, doctors, and therapists that provide care and 
outcomes that improve patient quality of life at home.
    Jancare currently has approximately 28 full-time, 6 part-
time employees, and 1 intern. We have a client base of 18. We 
service Dutchess County, Westchester County, Putnam County, and 
Manhattan.
    Jancare also believes in giving back to the community and 
provides free health services at community-based events, such 
as blood pressure screening, diabetes finger stick, and health 
awareness.
    One of the biggest challenges for female entrepreneurs is 
accessing funding: 58 percent of female entrepreneurs start 
their business with their own funds. Other studies show that 
companies with access to capital have grown at the rate of 
three times that of those who lack equity. Women experience a 
greater financial gap than their male counterparts.
    In the process of starting Jancare, I was part of the 58 
percent. I was unable to get a loan from my bank, even though I 
had a 10-year relationship with them. I was fortunate to have a 
401(k), which I borrowed $25,000 from at an interest rate of 6 
percent.
    While completing my MBA, I realized that the business plan 
for Jancare that I worked on was not feasible. In my research 
to find an organization to assist me, I found Women Enterprise 
Development Center, WEDC, the WBC in White Plains.
    I enrolled in WEDC 60-hours Entrepreneurial Training 
Program to complete an effective business plan. During this 
course, I realized that so many of my female entrepreneur 
classmates had great ideas yet lacked the funding to turn those 
ideas into reality. While the WEDC course provided the 
appropriate tools to start, without proper funding, it is next 
to impossible for these businesses to grow.
    The Jancare business plan that WEDC helped me to create was 
more feasible and attainable than my previous plan.
    As a female entrepreneur, we have made some progress over 
the past few decades, but we still have a long way to go, and 
we must continue on this journey. Mentorship is important to 
the success of entrepreneurs. Female entrepreneurs need 
guidance through the process of starting and growing their 
business. Someone who has the experience and the knowledge to 
show you how to reach your goal is a valuable resource. Anyone 
can open a business, but having the right tool is necessary for 
success. Running a business day-to-day can be challenging. 
Having a mentor to prevent you from making certain mistakes in 
the process is priceless.
    The WEDC community has allowed me to develop strong 
personal business relationships with my fellow WEDC graduates 
as well as with staff. This was an asset for me as it helped my 
self-confidence to grow while allowing me to be part of an 
organization that fostered network and mentoring. WEDC support 
has helped Jancare to grow tremendously.
    Having an individual or group to exchange your idea without 
discrimination or judgment is a true asset.
    In closing, I appreciate the opportunity to share my story 
with this committee, and I strongly urge Congress to increase 
funding for organizations like WEDC, WBC, which help fund and 
mentor female entrepreneurs just like me. By opening the door 
to greater access to funding and mentorship for female business 
owners, we will unlock greater economic potential.
    Thank you.
    Chairwoman RADEWAGEN. Thank you for your testimony, Ms. 
Green.
    Ms. Pianalto, you are now recognized for 5 minutes.

                STATEMENT OF ANTONELLA PIANALTO

    Ms. PIANALTO. Thank you, Chairman Radewagen, Ranking Member 
Lawson, and distinguished members of the Subcommittee for the 
opportunity to share this testimony. My name is Antonella 
Pianalto, and I serve as the president and CEO of the 
Association of Women's Business Centers.
    We support Women's Business Centers by providing training, 
programming, and advocacy to improve their services to women 
entrepreneurs. In fiscal year 2016, our centers served more 
than 145,000 clients, leading to more than 17,000 new 
businesses and nearly 25,000 new jobs. We assisted with nearly 
$429 million in capital infusion and helped to secure nearly 
$40 million in government contracts.
    As the advocate for this critical program, it is an honor 
to be here today during National Women's Small Business Month 
and with this distinguished panel of successful entrepreneurs.
    Fostering an environment where women can start and grow 
businesses has been a vital part of America's economic 
security. Today, that is truer than ever, with more women 
starting ventures at five times the rate of men. My testimony 
provides our perspective on women's entrepreneurship, the role 
of WBCs, and policy recommendation.
    This statistic captures the impressive scope of women 
entrepreneurs. If American women business owners were their own 
country, they would have the 10th largest GDP in the world 
outperforming entire nations like Canada, Mexico, and even 
Russia. As already has been stated this morning, this footprint 
is made up of more than 11 million women business owners, a 45-
percent increase since 2007 with $1.6 trillion in revenue. From 
2007 to 2012, women started 1,143 businesses each day, and 
their revenues grew by double digits at all revenue levels. 
Notably, 8 out of every 10 net new women-owned firms launched 
since 2007 were started by a woman of color.
    By any metric, the last decade truly has been an era of 
women's business expansion, yet despite this growth, women 
still face barriers. Women start businesses with roughly half 
as much capital as men. Despite being 38 percent of all firms, 
women receive less than 5 percent of conventional loan dollars 
and only 17 percent of SBA's 7(a) loans.
    Women fare no better seeking capital outside of banks. 
Women receive just 7 percent of venture capital. Limiting the 
flow of capital to women-owned businesses is a missed 
opportunity. First Round Capital found that their investments 
in companies which had at least one female founder performed 63 
percent better than their investment in all-male teams. Shark 
Tank's Kevin O'Leary found the same. Of the 32 companies in his 
private portfolio, all of his returns were coming from 
companies either owned or run by women.
    There is vast economic potential in women-owned businesses. 
Economists speculate that if women started businesses with the 
same amount of capital as men, they could create 6 million jobs 
in 5 years. They also found that, if women were fully engaged 
in their businesses, it would raise GDP by 7 percentage points.
    Sadly, stories of entrepreneurial success tend to be male 
dominated, incorrectly framing a narrative that men are better 
at growing businesses than women. Government leaders can help 
by highlighting stories of successful women entrepreneurs like 
these amazing women.
    Potential is not limited by capital alone. Women need 
entrepreneurial training. The Aspen Institute found that when 
business owners receive technical assistance, success rates 
skyrocket. Similarly, as SBA Administrator McMahon notes, more 
successful women business owners are needed as mentors.
    Women's Business Centers spend each day unlocking this 
potential and addressing the challenges women face, as they 
have for each of the 2 million women who have walked through 
our doors. Women view their local WBC as a trusted adviser and 
partner over the lifetime of their company. Simply put, our 
role is the glue of the women's entrepreneurial ecosystem, 
providing a supportive environment that builds competence, 
confidence, and connections. But our centers need more 
resources, and too many communities do not have access to this 
unique service provided by WBCs.
    There are four policy recommendations that can help women 
entrepreneurs: improving access to capital, increasing 
resources for technical assistance, modernizing the WBC 
program, and expanding the certification options.
    We are grateful to Chairman Chabot, Ranking Member 
Velazquez, Representative Knight, and Ranking Member Lawson for 
reauthorization of the program which was included in the House 
National Defense Authorization Act.
    We urge the house to insist on its inclusion in conference. 
Thanks also to Representative Murphy, who championed an 
additional $1 million for the program in appropriations for 
fiscal year 2018.
    In closing, I appreciate the opportunity to celebrate the 
explosive growth of women-owned businesses and the tremendous 
impact they are having on our Nation's economy, and to update 
this Subcommittee on the role WBCs play in ensuring women's 
entrepreneurial success. We have only begun to tap the 
potential of this economic powerhouse.
    Thank you again for this opportunity.
    Chairwoman RADEWAGEN. Thank you, Ms. Pianalto, for your 
testimony.
    Ms. Clark, you are recognized for 5 minutes.

                   STATEMENT OF HESTER CLARK

    Ms. CLARK. Good morning. Thank you for the opportunity to 
testify before you today to share my experiences and thoughts 
on fostering women's entrepreneurial success.
    My name is Hester Clark. I am the founder and owner of 
Hester Group, a professional services firm located in 
Jacksonville, Florida. Hester Group has 28 employee positions, 
and we are located across the United States with an average of 
$2.5 million in revenue. And as I mentioned, we are located in 
Jacksonville, Florida.
    In preparing for this presentation today, I read a July 
2017 report by the National Women's Business Counsel entitled 
``Necessity as a Driver of Women's Entrepreneurship.'' The 
report explores and expands upon the concept of necessity as a 
driver of women's entrepreneurship in the United States.
    Twenty years ago, I was a necessity entrepreneur. I was a 
young mother seeking work-life balance so that I could raise my 
then-12-year-old son and 9-year-old daughter. As a necessity 
entrepreneur, I needed the resources and support entrepreneurs 
like me need all over the place. And we are most successful 
when we have an entrepreneurial ecosystem within our own 
communities that provides access to human, financial, and 
professional resources. Thankfully, the Small Business 
Administration and resource partners, such as the Jacksonville 
Women's Business Center in Jacksonville, Florida, are my 
entrepreneurial ecosystem.
    I am so humbled to share my journey with you today. For 
almost 20 years, the SBA and Hester Group have traversed 
challenges and successes together. There is not one day since 
starting the Hester Group that I have not been without the 
support of the SBA and its resource partners. It is as if the 
SBA and the Women's Business Center said to me, ``Come on, 
Hester, I will show you the way.'' Sometimes I held the hand 
tightly because I was fearful of taking a big step. And 
sometimes I held it a bit loosely, knowing that they were there 
as my partner to provide strength.
    My entrepreneurial ecosystem in Jacksonville consists of 
the Jacksonville Women's Business Center, Jacksonville SCORE, 
Florida Small Business Development Center at the University of 
North Florida, and the North Florida District Office of the 
SBA.
    I have relied on these resources at every stage. When I did 
not know how to establish a financial accounting system, I 
participated in the Financial Matters Workshop. A mentor was 
assigned to me, helped me understand the financial basics, and, 
most importantly, taught me how to hire an expert to provide 
financial expertise to the company.
    When I did not know how to establish my human resources 
policies and procedures, the Jacksonville Women's Business 
Center provided six mentors for 1 year through the ATHENA Link 
Program. They helped me to understand our corporate 
infrastructure and maintain compliance.
    When I needed ongoing support and advice, SCORE 
Jacksonville provided me with a patient and experienced retired 
executive. He guided me through the hiring of our vice 
president. He knew exactly what Hester Group needed to succeed, 
and our vice president, Ms. Roslyn Mixon-Phillips, continues 
with us today and is a vital member of our team.
    When I needed access to capital, I was able to receive an 
SBA 7(a) loan with the support of the North Florida district 
office. The 7(a) loan has been the foundation of our growth and 
expansion.
    The SBA and its resource partners in North Florida continue 
to extend a helping hand to Hester Group, as we have grown over 
the years, and I continue to hold on real tight.
    My journey as a women entrepreneur is not unusual, not at 
all. There are over 10 million women entrepreneurs in the 
United States, and we all share similar paths. Each of us are 
unsure, at times unknowing, and yet unafraid to become an 
entrepreneur. And each of us needs support and guidance along 
the way.
    I share my journey with you today as an example of the 
direct benefits. I recommend that the SBA continue to expand 
access to capital, expand community outreach in rural and 
underserved communities, expand funding, provide disaster 
assistance funding, and enhance online resources.
    In summary, I encourage this Committee to provide the SBA 
Women's Business Centers and other organizations with the 
funding and support that we need to hold perhaps just one more 
or 1 million more hands of women entrepreneurs.
    Thank you.
    Chairwoman RADEWAGEN. Thank you, Ms. Clark.
    Ms. King, you are now recognized for 5 minutes.

                  STATEMENT OF JEANNETTE KING

    Ms. KING. I have had the honor and privilege of serving my 
country since I was 19 years old. It began with my service in 
the U.S. Navy and has continued through my work with my small 
business with agencies within the Department of Defense, 
Department of Homeland Security, Department of Veterans Affairs 
and a number of Federal civilian agencies.
    Good morning. I am Jeannette King, president and CEO of 
Strategic Resolution Experts, or SRE. I am both honored and 
humbled by the invitation to speak to this esteemed body and 
have the opportunity to not only represent women-owned small 
businesses but also service-disabled veteran-owned small 
businesses, veteran-owned small businesses, 8(a) small 
disadvantaged businesses, and HUBZone certified small 
businesses, all small business types of which I am certified.
    I would like to speak on the challenges and successes I 
have experienced since founding SRE in 2007. First, I will 
speak about access to capital. Second, I will speak on the 
small business programs and how they have positively influenced 
my business and some of the negatives. Third, I will speak 
about being a women-owned small business who also happens to be 
a service-disabled veteran.
    I started SRE in 2007 with $10,000. I was, and still am, a 
single mother with no access to any other capital. I have no 
husband. I have no family with money. So I left a job making 
over six figures per year to live at or below poverty for 
nearly 5 years.
    During this time, I cashed in all of my 401(k)'s, deferred 
all my student loans and prayed that I could feed my son, Cody, 
and keep our house.
    During this time, my mom and stepdad agreed to allow me to 
put a second mortgage on their home and property to try to keep 
me afloat. But by 2009, I had maxed out the line of credit, 
which was very small, and I was paying my mortgage with my 
credit card and my credit card with another credit card and so 
forth, until it got to the point where I was afraid I was not 
only going to lose my house, but my parents were going to be 
homeless as well.
    So, in 2009, I was offered a job, and I was ready to go. A 
few days before I took the job, they said, ``Hey, we need a 
1099 consultant.'' So I said, ``Will you subcontract to SRE?'' 
They agreed. That contract saved my business. In 4 months, I 
made enough money to live for about 6 months. And then, shortly 
thereafter, I landed my 8(a) designation through the Small 
Business Administration and then, 3 months later, got two small 
prime contracts with the IRS.
    Soon after that, I received a significant prime contract 
from Defense Threat Reduction Agency through my contacts and 
relationships I had been fostering for over 5 years. Once I 
received that contract, which was over $3 million, only then 
could I get a line of credit. I got it through the SBA under 
the backing of the Patriot Express Program, which I think is 
obsolete now, and the reason why I couldn't get a loan is 
because, despite the SBA's guarantee, small businesses still 
have to meet the bank's underwriting guidelines, and I did not.
    So I was a single mother from West Virginia who had come 
from an economically disadvantaged background, who served in 
the military, and could really only pray for a miracle to find 
a way to start and keep my business. I don't know the answer to 
this challenge, but I would be happy to work with any of you to 
find the answer.
    So I will talk about the small business programs. As I 
said, I possess every single small business designation that 
there is, and there are some challenges in the paperwork. The 
8(a) program, my paperwork was over 1,000 pages. It got lost 
initially. Then it got rejected. Legal overturned it because I 
could clearly show social and economic disadvantage, despite 
not being in one of the protected classes.
    Same with service-disabled veteran-owned and veteran-owned. 
While getting the designation through VIP and VetBiz is much 
better because it is now 2 years, it is very time-intensive. 
Same with women-owned small business. That program is okay for 
me now because I am 8(a), but once I am out of 8(a), these 
programs all together probably take about 80 hours, which is 
not a lot of time, but when you are a small business and time 
is money, they can be challenging.
    The HUBZone designation was by far the most challenging, 
which we can talk about that offline, but I want to talk more 
about my successes.
    Thanks to these various programs and the support and 
guidance I received from my West Virginia SBA office in 
Clarksburg, I have a line of credit. I have grown SRE into a 
multimillion dollar company, and I use the HUBZone program as 
it was intended: to help disadvantaged individuals in 
economically depressed areas to become trained and qualified to 
obtain sustainable jobs. Our HUBZone program employs 14 people 
across the country, and they have completed, in just last year, 
over 2,000 hours of training, 622 courses, and 97 
certifications. Four of those employees now go to college, and 
their family members, two of them are in the Job Corps training 
program.
    Being a woman-owned and service-disabled veteran-owned 
small business is an opportunity to use our nurturing hearts 
and spirits to serve others, improve our communities, our 
States, our country, and the world in which we live. I do this 
by providing jobs across 12 States and nearly a half a million 
dollars in charity and 1,000 hours of paid volunteer time.
    In closing, I am thankful for this opportunity. I would 
like to thank you for your service and the time here. And just 
to let you know, last week, SRE won a $9 million contract and a 
$50 billion contract.
    Thank you.
    Chairwoman RADEWAGEN. Thank you, Ms. King, for your 
testimony.
    I now recognize myself for 5 minutes of questions. My first 
question is for our three small business owner panelists. Each 
of your testimonies references the challenges you faced when 
starting and growing your businesses. Of those, what was the 
greatest challenge you experienced or continue to experience as 
a women entrepreneur?
    Ms. King?
    Ms. KING. The greatest challenge I experienced was access 
to capital. I had to self-finance my business, and again, I 
started with $10,000 and credit cards and, you know, a second 
mortgage on my parent's property.
    That is not so much of a problem anymore because I do poor 
people financing; that is what I call that. I will find a way 
to make it work, and I have, again, by some small miracle, but 
I think that is a challenge for every business that starts out 
without capital.
    Chairwoman RADEWAGEN. Ms. Green?
    Ms. GREEN. My greatest challenge would be mentorship. When 
I started my business, I had that issue, and WEDC came along. 
And even though, today, I still have that issue because, as you 
go to another level, you need higher mentorship. So that is my 
greatest challenge right now, to have someone to lead me to the 
next level.
    Chairwoman RADEWAGEN. Ms. Clark?
    Ms. CLARK. I think my greatest challenge now is support at 
the second stage of a business. As I mentioned, I used a lot of 
the resources early on, and as a founder of a business, there 
are a lot of resources there. But as the company has grown, I 
would love to see the Women's Business Centers funded so that 
they can provide more enhanced programs for more mature 
companies in the second stage of business.
    Chairwoman RADEWAGEN. My next question is for Ms. Pianalto.
    Unfortunately, the WBC previously located in American Samoa 
closed, limiting the access my constituents have to WBC 
resources. What is the AWBC doing to work with individual WBCs 
to increase their ability to remain open long term?
    Ms. PIANALTO. So thank you for that question. What we have 
been working on for the last couple of years--I have been at 
the helm of the AWBC for 3 years now--is more sharing of best 
practices, sharing of the experiences of some of the larger 
WBCs and the more experienced WBC directors. There was not a 
lot of that done prior, so we are actually working on a very 
big project right now where we will develop best practices, we 
will develop SOPs, templates that all WBCs can use.
    Some of our smaller ones--and American Samoa was one of 
those--it is challenging for them. As part of their grant 
application, they have to match the grant money that is 
provided by SBA. In the first couple of years, it is a 50-
percent match, and then, after that, it is 100 percent match.
    For the centers that are in communities that don't have 
large corporations or other sources of funding, it is a 
challenge. And I don't know all the specifics of what happened 
with the WBC in American Samoa because SBA doesn't share that, 
but I know raising funds is one of those. And so we are trying 
to provide training and support to those centers and helping 
them raise that funding. But it is a big issue.
    Chairwoman RADEWAGEN. Thank you, Ms. Pianalto.
    As a follow-up, what is the AWBC doing to expand the 
resources available through WBCs to clients without access to 
brick-and-mortar training centers?
    Ms. PIANALTO. So I think the value of the Women's Business 
Centers is their work within their communities. So it is a 
challenge for them to provide the services outside of that 
community that they--that perhaps might not have the physical 
access. I mean, we do hear that, frequently, that--and some of 
our panelists today talked about that--is that interaction with 
the centers and not only with the staff of the centers but the 
interaction with other women business owners. They create this 
community and build this network. So it is challenging for 
those communities that don't have a center right there.
    We do have centers--I will use an example of our one in 
North Dakota--it is one center, and it covers the entire State. 
And they are on the road constantly, going into the communities 
and bringing the resources there. Not all of the centers have 
that capability. Many of our centers have one to one and a half 
staff people. It is very difficult for them to cover a large 
geographic territory with that kind of staffing.
    Chairwoman RADEWAGEN. Thank you.
    I have a question for Ms. King. Your testimony discusses 
your journey to entrepreneurship. What made you decide to 
pursue creating SRE, despite the immense challenges you faced?
    Ms. KING. Thank you. As a single mother, it was very 
important for me to provide my son the opportunity to go to 
college and not struggle the way I did growing up. And so that 
was really my inspiration. And, quite honestly, failure was not 
an option. My son just left for college in August, and I was 
able to pay for his entire 6 years of college, and he is going 
to be a doctor.
    Chairwoman RADEWAGEN. Thank you.
    I now yield to Ranking Member Lawson. You are recognized 
for 5 minutes.
    Mr. LAWSON. Okay. Thank you. This was a problem for me, and 
I just--because you all are women entrepreneurs, I would like 
to see how, maybe, whether you all was able to handle that a 
lot better than I was. And that centers around the financial 
burdens that is--by medical leave, particularly a challenge 
which makes it harder for you to attract, you know, employees 
because of medical leave. And the reason I ask this question is 
because I had a situation where it just seemed like it just 
kept coming up. One child birth after the next, you know, with 
a very talented individual.
    Do you think that nationally administrated programs could 
ease the financial burden and allow small businesses to ensure 
that all workers have access to paid family and medical leave 
regardless of employer size?
    And that is a question for everyone. I can start with Ms. 
Green.
    Ms. GREEN. Ideally, that sounds great, but for a small 
company to have family medical leave absence--that is what you 
are talking about, correct?
    Mr. LAWSON. Correct.
    Ms. GREEN. For instance, my company has 28 employees, and 
if someone goes out sick because of family leave of absence, it 
is very hard to get even coverage for that. So, for me, it is 
very hard to say something in regards to that because, as a 
small business, we have to have good staff to care for seniors 
in the home. So, if the government can take that part, 
alleviate small business on that, the family medical leave 
absence, that would be great for me as a company itself.
    Mr. LAWSON. And I know you have a lot of experience with 
this?
    Ms. PIANALTO. I am going to defer to the small businesses.
    Mr. LAWSON. Okay. Ms. Clark.
    Ms. CLARK. Yes. Personally, I, of course, support a family 
and having choices and being able to have the flexibility. That 
is why I started my company, which was because I needed work-
life balance.
    But now, as a business owner, funding those types of 
programs in support for our employees is difficult. So, on one 
hand, I support it. And so what we have done--it is very hard 
to make up that amount if it is not embedded in your contract. 
What I would hope to see is that we are allowed to, of course, 
have those costs included, particularly in government 
contracting, so that we can then have those costs covered for 
our employees.
    What we have done in the interim is use work-life balance, 
using work from home, using work flexibility, telecommuting, 
those things--anything that I can do. And at times, probably 
when we were much smaller, bring the child to work, because 
that is what I had to do when I was first starting the company.
    But in terms of the actual making it mandatory, we would 
need to see the ability to have something offset those costs to 
our company.
    Mr. LAWSON. Ms. King, and you were talking about your son, 
so I know.
    Ms. KING. Yes, sir. So, as a small business, asking, at 
least my business, to provide paid time off under the Family 
and Medical Leave Act would potentially bankrupt me. But what I 
do is I offer short- and long-term disability. So, if we have 
anyone, women or men, who need to take off 6 weeks, 12 weeks, 
20 weeks, we offer that insurance coverage for them that they 
can elect. And it is at a group rate so that they are covered 
under, you know, the disability insurance so that we don't have 
to pay FMLA out of pocket. So it is an insurance policy.
    Mr. LAWSON. Okay. Thank you. May I continue?
    Chairwoman RADEWAGEN. Yes.
    Mr. LAWSON. Okay. I heard earlier that most of you spoke 
that the SBA has been very helpful in holding your hand all 
through the process. And when SBA came before the full 
Committee, they talked about all of the new services and so 
forth that they provide for small business owners, and 
particularly, they recognized the fact that women-owned 
business are the fastest growing businesses in America.
    But making that statement, what improvements would you make 
to us as Congress people as we approach the SBA that can really 
help women-owned business more?
    And I guess I will start again down with Ms. King, and then 
we will move back the other way.
    Ms. KING. I think that is a great question. I think that 
our legislative bodies are cognizant of the challenges for 
small businesses, and you all pass great legislation and great 
policies. I think one thing to consider for the SBA is their 
staffing and their appropriations and their budget because they 
do a great job and they are very dedicated to us. They need 
more help. I think that is the biggest thing because they have 
the heart. You are giving them the tools. You give them the 
policies and the set-asides, but they do need more help.
    Mr. LAWSON. Okay.
    Ms. CLARK. Yes, I agree with what Ms. King has said. In 
addition, continuing to offer many of the resources online. I 
am real passionate about rural and underserved communities. And 
when you are running a business, it may be difficult to attend 
an activity, although I love the flexibility of being able to 
go out. But making those resources available and then looking 
at nontraditional methods of communication so that people--in 
the beginning, you are afraid to go in and be among other 
people and to really admit what you don't know.
    And so some resources that would allow an entrepreneur, 
like myself, to really admit in a more private setting how I 
need the help, because it is very frightening to step out there 
the first time and say, you know, I need help with this. Online 
might be a way to do that because it provides resources and 
after-hour resources and midnight resources, and so I would 
encourage funding for after-hour resources to the SBA.
    Ms. PIANALTO. I will certainly concur on the increase of 
resources, especially funding, and I am obviously biased toward 
the Women Business Center program. But I will say we have to 
do--and SBA certainly can help with this--we have to do a 
better job of just educating small businesses out there about 
the resources available. I hear time and time again that people 
don't know that there are Women's Business Centers, even in 
their own communities, and that is just obviously one of the 
resources available. So we have to do a better job of getting 
the word out and making these services more accessible and 
just, again, informing small businesses of what is available to 
them.
    Ms. GREEN. I would say resource and funding. The WBC in 
White Plains, that is the center that I belong, I had to pitch 
quite a few times for them to get extra money because their 
office was so small and they were trying to get a bigger space. 
So I think resource and funding for SBA would be a great 
opportunity for them. Thank you.
    Mr. LAWSON. With that, I yield back, Madam Chair.
    Chairwoman RADEWAGEN. Ms. Green, access to adequate 
financing has been a key topic in today's hearing. You 
mentioned that your business is self-funded. Had you had access 
to alternative funding, how do you anticipate your business 
experience would have changed?
    Ms. GREEN. If I had access to alternative funding, my 
business would have grown much more. I would have had 
marketing, someone to market my business. I would have all of 
the right tools--that a business run. And when I started my 
business, the $25,000 didn't go too far. So I actually had 
extra help, but not from the bank or any other funding.
    I grew, from being part of WEDC 2015 to 2016, I grew to $2 
million. I figure if I had access, I would have been at $10 
million by now, so I think if we have--because the plan that I 
have can allow me, but I don't have the funding, is a problem 
for us.
    Chairwoman RADEWAGEN. This question is for Ms. Pianalto.
    Your testimony cites a study which says that, if women 
started businesses with the same capital as men, they could 
create 6 million jobs in 5 years.
    What do you see as the reason or reasons that women are not 
currently able to gain access to that same level of funding 
that men do?
    Ms. PIANALTO. I wish I knew the exact answer, but I will 
cite a few things that I think contribute to it.
    I think one of the issues is, I think, it is over 40 
percent of women-owned businesses are in professional and 
personal service businesses.
    And I hear stories all the time of women--just like the 
women at this table--it is much harder to get funding, 
traditional funding, especially through banks, if you are in a 
service industry because you don't have the collateral, you 
don't have the assets that another type of business might have. 
So I think, because more women are in that type of business, 
that is one of the issues.
    I think another issue is just the number of women actually 
asking for capital. We need to educate and train and help them 
through the process of applying for either a loan, a 7(a) loan, 
SBA loan, or a traditional loan. Some of those studies that I 
cited in terms of even the venture capital statistics, again, 
it is the number of women that are going and asking for that 
venture capital. We need to increase those numbers. So I think 
that will help.
    I will also say that we don't have great statistics, 
especially from bank lending, on lending to women and 
minorities because banks aren't required to keep those 
statistics and share them. So we don't really know in some 
instances if a woman has gone to a bank, what the reason was 
that she didn't--didn't get that loan.
    So I know that CFPB is supposed to be writing rules that 
were included, provisions included in the Dodd-Frank Act for 
banks to collect that data, and it has been how many years now, 
and that hasn't happened. Until we have better data about what 
women are going through in that, I am not sure we are going to 
know all of the answers.
    Chairwoman RADEWAGEN. Ms. Clark, your testimony mentions 
that you started your business out of necessity as a means of 
providing a better work-life balance for you and your family. 
In what ways do you believe that being an entrepreneur of 
necessity affected your business creation process?
    Ms. CLARK. That is a very good question. Being an 
entrepreneur of necessity, oftentimes you start with a little 
bit of knowledge because, you know, you are really fueled to do 
something different and to have what you need, which in my case 
was work-life balance. A 12- and a 9-year-old are busy ages to 
raise children, and I needed to be there and did not have the 
leave and the flexibility.
    So that sort of pushed me out there. Had I been fueled by 
another aspect, I probably would have had more preparation, 
certainly, would have had better technology, and would have 
received probably funding earlier because I would have asked 
for it. Just as you mentioned, I didn't know to ask for it.
    So preparing to be an entrepreneur and being an 
entrepreneur of necessity are very different starting points. 
And I would encourage that, even women who are not sure or for 
women to begin to learn more about perhaps in middle or even 
high school and college, to just learn that entrepreneurship is 
a way that they can increase their family's income.
    So, for me, I think had I been not an entrepreneur of 
necessity, I would have been more prepared to start my company.
    Chairwoman RADEWAGEN. Thank you.
    I now yield to Ranking Member Lawson.
    You are recognized for 5 minutes.
    Mr. LAWSON. Thank you very much, Madam Chair.
    A diversity of studies show it is harder for minority- and 
women-owned small businesses to not only get the business 
started but also develop the business network needed to grow in 
these businesses. Have you found this to be true in your work 
with small business, Ms. King?
    Ms. KING. Unequivocally, yes. It is very true. When a women 
walks in the room, especially in government contracting, we are 
definitely a minority. There are usually 500 men at a 
conference and 2 women. And so we have to establish ourselves 
as, you know, real entrepreneurs and people with authority and 
so forth. And I had a mentor, a male mentor, who was a marine, 
tell me one time, he said: Being a woman is your secret woman. 
You walk into a room and they have no idea what is in your head 
until you start talking, and then they know.
    And so I have always used that, but it is difficult 
because, especially like I said, in government contracting, it 
is mostly a man's world.
    Mr. LAWSON. Right. And as a followup, in many cases, in 
small businesses seeking government contract, a lot of the 
small business owners will hire lobbyists to approach these 
government agencies. How does that affect you when you are 
trying to get contracts on a Federal basis?
    Ms. KING. We don't work with lobbyists because we don't 
have the money for them. So we would have business development 
folks, or I would go and talk to small business 
representatives. I mean, really, it is boots on ground, being 
there, and almost stalking them to get business. We don't have 
lobbyists so that is not even an option for us.
    Mr. LAWSON. Right. Could anyone else comment whether it has 
been an issue when you are trying to get government contracts 
when other firms, especially men-owned businesses, come in with 
lobbyists and you all don't have the resources to do that? Does 
it affect you in any way?
    Ms. CLARK. I can't speak specifically as to whether another 
company has a lobbyist, but I can speak to watching in an 
environment where perhaps men-owned--non-women-owned businesses 
were, either large businesses or smaller businesses owned by 
males, were able to have a larger set of resources because they 
had pooled together. And it is something that they had been at 
the game longer, and so they were pulling together or maybe 
members of associations that did have lobbyists.
    What I learned to do was to watch and to go where they were 
going. And having a lobbyist is not even an option for that. We 
have no funding for that, as you mentioned. But I would want to 
understand greater what impact that does have. I never really 
thought about it that way, as you mentioned it, but perhaps 
understanding if that is something that is available, making 
sure that it is available to everyone.
    Mr. LAWSON. And the reason why I asked that question is 
because I have seen it in State government trying to get State 
contracts when some firms come in with the resources and stuff, 
and other firms send in a lobbying group sometimes that have a 
little bit more input and influence on the process. There was 
an Indian group that came in when I was in there that was 
really, came in from Jacksonville, SGS Technology, and they 
were trying to get the government contract, but they were at a 
real disadvantage when they got to Tallahassee. And that is the 
reason why I asked you, because it is more of a government 
town.
    But I want to try to get this one in before my time runs 
out. We have heard again and again some serious accusations 
about discrimination in the lending space. What measures would 
you suggest to improve women's ability to access capital? And 
that goes to Ms. Green.
    Ms. GREEN. So I am going to talk about someone that I know, 
a friend of mine who is trying to get venture capitalists, and 
it is the hardest thing for her to get. She said pitching 
before thousands of people is very hard to get as a female 
entrepreneur. For me, it is different because I am from a 
private sector. So the only time I feel I am not part of the 
room is when we have 15 guys run a home care agency and I am 
the only female there. So, when it comes to capital, now, for 
me, it is not like before, but my other female counter partners 
do have that issue going forward.
    Mr. LAWSON. Anyone else want to--I got 10 seconds.
    Okay. Ms. Clark.
    Ms. CLARK. For funding, our personal journey was that we 
went to a small community bank. I do believe those resources 
are available. And continuing to support community banking in a 
way that allows them to be able to provide lending, that was 
what was helpful to us. Although we banked with a very large 
bank, we were not able to navigate through their maze. But with 
the community level bank, we were able to go in, share our 
story. We had years of financing at that point, probably 12 
years--I mean, years of records--12 years of successful--of 
running a successful business. And so I think from getting 
funding standpoint, making sure that the community banks are 
aware and participating, and then it all goes back to 
education.
    Honestly, I didn't know to ask. And when I went in to ask, 
it was out of necessity. I was at the eleventh hour, had a new 
contract, had employees, and needed the funding. And that is 
not the time you want to go in and ask for money. So starting 
earlier and empowering us, and then having other women like 
myself tell my peers: You can do this. Take your paperwork, go 
in there, and ask for the funding.
    There are programs. The 7(a) was our lifeline. And it has 
made all the difference in the growth of our company.
    Mr. LAWSON. Okay.
    Madam Chair, I yield back.
    Chairwoman RADEWAGEN. I now yield to Mr. Blaine 
Luetkemeyer, vice chairman. You are recognized for 5 minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    And, welcome, ladies.
    I want to follow up on the previous questions with regards 
to funding because, basically, if you don't have funding, you 
can't get off the ground. And all of you have faced that 
problem, apparently.
    And I was kind of curious, you know, there are rules 
against discrimination based on sex. Do you believe that you 
are discriminated against because you are women versus the men?
    I know, Ms. Green, you made a statement, you know, you are 
1 out of 15, and the guys get first crack at everything, and 
you get left out. I mean, do you feel you get left out because 
you are a lady, or do you feel that they had--you know, and Ms. 
Clark just made mention of the fact that maybe you need a 
mentor to be able to help you prepare better to be able to 
qualify.
    I mean, can you explain your concern?
    Ms. GREEN. I do feel like I was left out because I was a 
female. That is true.
    In Fishkill, where I lived, I went to three banks to get a 
loan for $25,000. One of them was a credit union. And they told 
me that I didn't have enough funds; even though I had $10,000 
in the account, they did not want to lend me a loan. So I feel 
like because--and even when I present my business plan to say, 
``Here is a business plan. If I make this money, I am able to 
repay you back,'' I was not able to get the loan. So I felt 
like because I was a female, they didn't take me serious.
    And then the business that I was going into was nursing 
care agency. The banker says to me: There are like a thousand 
agencies out there. How do you think you are going to manage 
when you have all these big competitors?
    And I said: Well, they had to start small to get big. So if 
you give me a chance, then I will.
    So then I realized I couldn't get it. I just had no choice 
but to go to my 401(k) to start the business process. So I did 
feel like as a female--and then they think I didn't have the 
education. And even though I said I am in school going for my 
MBA, it didn't mean anything. So, for me, I felt like I was 
discriminated as a female.
    Mr. LUETKEMEYER. I can tell you: Your story is not 
different from a lot of men that try to get in. Small 
businesses are tough to start. I mean, regardless if you are a 
guy or gal, I mean, the criteria that you have to meet to be 
able to get started is just tough. And I was just curious of 
your concern there.
    Ms. King, in your testimony, you talked about having to 
spend or had to fill out roughly 1,000 pages to be able to 
qualify as a woman-owned business. Can you talk a little bit 
about that? Number one, I guess, is it really 1,000 pages, and 
is your designation really that important to filling one out? 
How cumbersome was it, and much did it cost?
    Ms. KING. So I was actually referencing my 8(a) SDB 
designation. That was 1,000 pages. So, essentially, there is an 
application, and then you have to provide supporting evidence. 
And that supporting evidence was 1,001 pages. The first one was 
600 or 500, and the next one was 501. So that was for the 8(a).
    I have a streamlined process of women-owned now because I 
am an 8(a), but once that expires, I will have to go through 
the process of proving I am a woman, number one; number two, 
that I own and run my business and that I am not a front for a 
man, because that does happen, unfortunately; and then I have 
to provide all my financials, all my tax records, all my banks 
records. You know, there is a lot of paperwork because they 
want to make sure, first of all, if you say you are a small 
business, that you are, and if you try to get the disadvantaged 
designation, you have to prove that you are disadvantaged. So 
they ask for literally all of your financials, everything you 
own, and the kitchen sink, literally.
    So that is what I had to do for 8(a).
    Mr. LUETKEMEYER. What was the cost of that? Do you know off 
the top of your head?
    Ms. KING. Well, I paid a lawyer $5,000 to do it the first 
time, and it got outright denied. And I said I am smart enough 
to figure this out on my own. So myself and one of my 
employees, we sat down and spent 3 days and got all this 
documentation together, and I did it myself. So it cost 
whatever that 3 days of time and labor were.
    Mr. LUETKEMEYER. Okay. Do you feel it was worth that to 
you, that designation, is it worth that much?
    Ms. KING. They are all worth it, yes, sir. All of the 
designations are worth it. I think there is a way to 
streamline. If you want to get a designation through VA, SBA, 
have one portal, put all your documents in it. I mean, we do 
IT. We can help you build an algorithm that will tell you, you 
know, they qualify for all of these things, boom, it is done. 
It----
    Mr. LUETKEMEYER. So, right now, you have to fill out this 
form to qualify for every single agency you deal with.
    Ms. KING. Every single designation. So there is 8(a).
    Mr. LUETKEMEYER. Okay, I see.
    Ms. KING. There is VOSB, SDVOSB, HUBZone, woman-owned and 
EDWOSB. So there is like--what was that, six, seven?
    Mr. LUETKEMEYER. More than a handful.
    Ms. KING. Different pieces of paperwork, yes, sir.
    Mr. LUETKEMEYER. Well, you know, this is a great place to 
talk about red tape because that is the only thing we know how 
to do well around here, add more red tape to everything. But I 
do appreciate your comments, and my time has expired. Thank you 
very much.
    Chairwoman RADEWAGEN. I now yield to Dr. Roger Marshall. 
You are recognized for 5 minutes.
    Mr. MARSHALL. Thank you, Madam Chairman.
    Thank you, ladies, for being here. I apologize for being 
late. I left the floor, advocating for recognizing this as 
National Businesswomen's Month. I am an OB/GYN, so I have got 
to be on the other side of that, listening to the story for 
literally 30 years. So I think I lived part of it as a man in a 
woman's world; it is kind of upside down. You know, kind of get 
my thoughts together here. As I see the inequalities that still 
exist, I would say, number one, is that women's pay for the 
same job in the management levels is not the same. I think that 
is still a huge problem. I think women's access to the 
boardroom is still a problem.
    I think we have made great strides in getting women into 
medical school and law school and getting access to those 
things. Now it is time for the gap to be closed.
    But one thing it is hard to be prejudiced against women is 
starting their own business. So I think that is a great place 
to start here, is starting your own business and being small 
entrepreneurs.
    I want to relate one more story. Goodness, 20 years ago, 
Rotary started letting women into Rotary. We wouldn't have 
Rotary Clubs today without women. They do 90 percent of the 
work and have great follow through. And I think the same thing 
also in small business. And I just encourage the small business 
woman to think about those types of service organizations, as 
they give you connection and open up the world.
    Tell me--and maybe each you take 30 seconds rather than 3 
minutes; I will let each of you answer the question--what do 
you wish Congress would do to help empower women to be 
successful small business women?
    Ms. Green, you want to start?
    Ms. GREEN. I would say mentorship and financing. Those are 
the two things I think would work. Those would be the two 
things I want to speak about: mentorship and financing.
    Mr. MARSHALL. Financing meaning access to capital?
    Ms. GREEN. Access to capital. Venture capital. Whatever it 
is in regards to funding that would be great for a female 
entrepreneur. I do run across a lot of female entrepreneurs who 
start a business and in no time are out of business because 
they don't have the funds to continue the business itself. And 
they do have the passion and the idea, but not the funding.
    Mr. MARSHALL. Cashflow is always a challenge. It takes an 
inordinate amount of money to start it, but no one counts on 
the cashflow.
    Ms. Pianalto, what about you? What are your thoughts?
    Ms. PIANALTO. I am not an entrepreneur. I am with the 
Association of Women's Business Centers. So my focus is getting 
more technical assistance to women. And that not only involves 
access to capital but also the mentorship that Ms. Green has 
talked about. But we just need--all these statistics, I mean, 
there is such potential with women-owned businesses. We just 
need to get them all in the growth mode. And they just need, 
many of them need assistance to do that.
    Mr. MARSHALL. Great.
    Ms. Clark?
    Ms. CLARK. I think the most important thing is to continue 
to ensure that we have a healthy workforce. The Affordable Care 
Act does that and also removes any penalties for preexisting 
conditions. As a mother of a child who has a preexisting--or an 
adult now who has a preexisting condition, I shudder to think 
what his life would be like if he was not able to get that 
coverage.
    Mr. MARSHALL. Flip that over. How did the Affordable Care 
Act help small business or access to workforce? What was that 
again? How?
    Ms. CLARK. It ensures a healthy workforce universally 
across the United States. So, therefore, I am able to hire 
individuals who----
    Mr. MARSHALL. That is really interesting. The Small 
Business Association got together in February or March up here, 
and they said the number one concern they had was the cost of 
healthcare. And nothing has done more to drive up the cost of 
healthcare than the Affordable Care Act.
    So you may have--I don't think it has done anything to 
improve the health of the country. But to say it is going to 
increase your workforce, I disagree with you, respectfully. So 
anyway.
    Ms. King?
    Ms. KING. Yes, sir.
    So access to capital is important. I think one of the 
things that Congress could do is to strengthen the guarantee 
programs through the SBA. Right now, there are certain 
percentages that they will guarantee. If Congress could say, 
``We will guarantee 100 percent at different levels,'' so maybe 
if they are very small, it is $25,000, and as their revenue 
goes up, increase those guarantees. Or maybe as their revenue 
goes up, the guarantees go down because the company has more 
cashflow. That would be one of my recommendations. Thank you.
    Mr. MARSHALL. Thank you.
    I will yield back, Chairman.
    Chairwoman RADEWAGEN. I would like to thank each of the 
witnesses for being here today, and I would like to 
congratulate Ms. King, Ms. Green, Ms. Clark for the outstanding 
success of each of your businesses.
    And thank you, Ms. Pianalto, for the important work the 
AWBC is doing to provide our Nation's women entrepreneurs with 
the resources they need to be successful.
    It is clear that, while impressive growth has been seen in 
the number of women-owned small businesses over the last 
decade, there is still a great deal of work to be done. So, as 
we continue to work to address the challenges facing women 
entrepreneurs, such as access to adequate financing, this 
Committee applauds the success and dedication of both our 
Nation's women business owners and those organizations seeking 
to help them succeed.
    Now I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered. We are adjourned.
    [Whereupon, at 11:09 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X


    ``Fostering Women's Entrepreneurial Success''

    Thank you Chairman Radewagen, Ranking Member Lawson and 
distinguished Members of the Committee for the opportunity to 
share this testimony with you. My Name is Janice Green and I am 
a Registered Nurse with more than 10 years of experience in 
medical and surgical care and the Chief Executive Officer at 
Jancare Private Health Service.

    As a nurse, I had the opportunity to take care of a female 
patient with stage four cancer metastasized to her lung for a 
short period of time. After her death, her husband, a lawyer, 
was impressed by my caring approach and insisted that I start 
my own nursing care agency. I took his advice and in 2014, 
Jancare Private Health Service Inc. was formed as a Sub S 
corporation.

    Jancare is on the cutting edge as a nursing care agency. 
Our vision as a corporation is to go beyond caring in the 
healthcare sector and provide outstanding care, with compassion 
and dignity, to surgical patients and seniors in the privacy of 
their own home.

    My role as a clinical Nurse Care coordinator is to oversee 
the care of individuals or couples who need medical or non-
medical care. This is done through a hands-on approach by 
implementing strategic care plans specially tailored to each 
client's specific needs. Jancare works with families, 
attorneys, geriatrics care managers, doctors, and therapists to 
coordinate care and provide optimal outcomes that improve the 
patient's quality of life at home.

    Jancare currently has approximately 28 full-time and 6 
part-time employees, as well as one intern. We have a client 
base of 18. We render services in Dutchess County, Westchester 
County, and Manhattan, with the goal of providing exceptional 
nursing care in these areas. Jancare believes in giving back to 
the community and provides free health services to community 
based events, such as blood pressure screening, diabetes 
finger-stick testing, and health awareness.

    According to research by Geri Stengel in 2014, ``Women own 
34% of businesses under $100,000 in revenue and 6% of 
businesses over $10 million in revenue.'' \1\ One of the 
biggest challenges for female entrepreneurs is accessing 
funding. 58% of female entrepreneurs started their business 
with their own funds. While money is the chief ingredient to 
start and grow any company, females have notably less access to 
equal financing. Other studies show that companies with access 
to capital have grown at a rate of three times that of those 
who lack equity. Women experience a greater financing gap than 
their male counterparts.
---------------------------------------------------------------------------
    \1\ Stengel, G ``forget the Glass Ceiling: Build Your Business 
Without One'', 2014

    In the process of starting Jancare Private Health services, 
I was part of the 58% of females who lacked financing. 
According to the Urban Institute, 2008 only ``4% to 5% of all 
small business loan from banks are given to female 
entrepreneurs''. Fortunately, I had the privilege of having a 
401K, which I borrowed $25,000 from at an interest rate of 6% 
---------------------------------------------------------------------------
to initiate the process of corporation set-up.

    While completing my MBA, I realized that the business plan 
for Jancare that I had worked on was not feasible. In my 
research to find an organization to assist with my business 
plan, I found Women Enterprise Development Center Inc. (WEDC), 
which I found to be far more structured than SCORE, because 
WEDC addressed my specific needs. I enrolled in WEDC's 60-hours 
Entrepreneurial Training Program to complete an effective 
business plan for Jancare. During this course, I realized that 
so many of my female entrepreneur classmates had great ideas, 
yet lacked the funding to turn those ideas into a reality. 
While the WEDC course provided the appropriate tools to start, 
without proper funding it is next to impossible for these 
business to grow.

    The Jancare Private Health Service business plan that was 
created with assistance from WEDC was more feasible and 
attainable than my previous plan. By participating in the WEDC 
course, I was able to see so many talented female entrepreneurs 
that experienced challenges with getting their business funded. 
Former president Barack Obama once said that when women 
succeed, American succeeds, and I believe this to be true.

    Even though female entrepreneurs hire 34% of the work 
force, they still face greater challenges than male 
entrepreneurs when it comes to funding their business ideas. As 
female entrepreneurs, we have made some progress over the past 
few decades, but we still have a long way to go and we must 
continue on this journey.

    Mentorship is important to the success of entrepreneurs. 
Female entrepreneurs need guidance through the process of 
starting and growing their business. Someone who has the 
experience and knowledge to show you how to reach your goal is 
a valuable resource. Anyone can open a business, but having the 
right tools is necessary for success. Writing an effective 
business plan, implementing, and updating that plan is the key 
to success. Running a business day to day can be challenging. 
Having a mentor to prevent you from making certain mistakes in 
the process is priceless.

    The WEDC community has allowed me to develop strong 
personal and business relationships with my fellow WEDC 
graduates as well as with staff. This was an asset for me as a 
female entrepreneur, as it helped my self-confidence to grow 
while allowing me to be part of an organization that fosters 
networking and mentoring. WEDC's support has helped Jancare 
grow tremendously. Having an individual or group to exchange 
your ideas without discrimination or judgement is a true asset, 
and WEDC provided me with just that.

    In closing, I appreciate the opportunity to share my story 
with this Committee and I strongly urge Congress to increase 
funding for organizations like WEDC, which help fund and mentor 
female entrepreneurs just like me. By opening the door to 
greater access to funding and mentorship for female business 
owners, we will unlock greater economic potential.

    Thank you 
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              Hester Taylor Clark October 12, 2017

 Statement to the Committee on Small Business Subcommittee on 
                     Health and Technology

    Good Morning,

    Thank you for the opportunity to testify before you today 
to share my experiences and thoughts on Fostering Women's 
Entrepreneurial Success.

    My name is Hester Clark. I am the founder and owner of 
Hester Group, a professional services firm providing logistics, 
strategic communications and program management services. 
Hester Group has 28 employee positions across the United States 
and we average over $2.5 million in revenue. We are located in 
Jacksonville Florida.

    In preparing for this presentation today, I read the July 
2017 report by the National Women's Business Council, entitled, 
``Necessity as a Driver of Women's Entrepreneurship''. The 
report explores and expands upon the concept of necessity as a 
driver of women's entrepreneurship in the United States.

    Twenty years ago I was a necessity entrepreneur, a mother 
seeking work-life balance so that I could raise my 12-year-old 
son and 9-year-old daughter. As a necessity entrepreneur, I 
needed resources and ongoing support. Entrepreneurs like me are 
most successful when they have an entrepreneurial ecosystem, 
with access to human, financial and professional resources 
within their own community.

    Thankfully, the Small Business Administration and resource 
partners in Jacksonville Florida are my entrepreneurial 
ecosystem.

    I am humbled today to share my journey.

    For almost 20 years, the SBA and Hester Group have 
traversed challenges and successes together. There is not one 
day since starting Hester Group in 1998, that I have been 
without the support of the SBA and its resources partners. It 
is as if the SBA and its resource partners took my hand and 
said to me ``Come on Hester, I'll show you the way''.

    Sometimes I held on tightly, fearful of taking a big step, 
and sometimes I held loosely, knowing with confidence and 
assurance that the support of the SBA and its resource partners 
was always nearby.

    My entrepreneurial ecosystem includes:

          <bullet> Jacksonville Women's Business Center

          <bullet> Jacksonville SCORE

          <bullet> Florida Small Business Development Center at 
        the University of North Florida

          <bullet> The North Florida District Office of the SBA

    I have relied on the SBA and these resources partners at 
each stage of my journey. One of the first workshops I attended 
in 1998 was presented by the Florida SBDC at the University of 
North Florida.

    When I did not know how to establish a financial accounting 
system, I participated in the Financial Matters Business 
Mentoring Program of the Jacksonville Women Business Center. A 
mentor was assigned to help me understand financial basics, and 
most importantly he helped me to understand the importance of 
hiring a financial expert.

    When I did not know how to establish human resources 
policies and procedures, the Jacksonville Women's Business 
Center provided six mentors of the Athena Link mentoring 
program. They helped me to understand and build our corporate 
infrastructure, and maintain compliance with HR requirements.

    When I needed ongoing support and advice, SCORE 
Jacksonville provided me with a patient and experienced retired 
executive who guided me through the hiring of our Vice 
President. He knew exactly what Hester Group needed to succeed, 
and our Vice President, Ms. Roslyn Mixon Phillips continues as 
a vital member of Hester Group today.

    When I needed access to capital, I was able to receive an 
SBA 7(a) loan with the support of the North Florida District 
Office. The 7(a) loan has been the foundation for our growth 
and expansion.

    The SBA and its resource partners in North Florida continue 
to extend a helping hand to Hester Group, and we continue to 
hold on tight!

    My journey as a woman entrepreneur is not unusual. There 
are over ten million women entrepreneurs in the United States. 
We share similar paths. Each of us are unsure, at times 
unknowing, yet we are unafraid to become an entrepreneur. And 
each of us need support and guidance.

    I have shared my journey with you today as an example of 
the direct benefits of SBA and its programs. I recommend the 
SBA continue to:

          <bullet> Expand Access to Capital

          <bullet> Expand Community Outreach in rural and 
        underserved communities

          <bullet> Expand Funding to Resource Partners for 
        mentoring and educational programs

          <bullet> Provide Disaster Assistance Funding and 
        Support

          <bullet> Enhance Online Resources

    In summary, I encourage this committee to provide the SBA 
with the funding and support needed to hold, perhaps just one 
more or one million more, hands of woman entrepreneurs.

    Thank you.
                  Committee on Small Business

             Subcommittee on Health and Technology

                 Testimony of Jeannette L. King

               Strategic Resolution Experts, Inc.

                        President & CEO

    I have had the honor and privilege of serving my country 
since I was 19 years old. It began with my service in the U.S. 
Navy and has continued through my work with my small business 
with agencies within Department of Defense, Department of 
Homeland Security, Department of Veterans Affairs, and a number 
of Federal civilian agencies.

    Good morning, I am Jeannette King, President & CEO of 
Strategic Resolution Experts incorporated, or SRE. I am both 
honored and humbled by the invitation to speak to this esteemed 
body and have the opportunity to not only represent Women owned 
businesses, but also Service Disabled Veteran owned, Veteran 
Owned, 8a Small disadvantaged businesses and HUBZone Certified 
small businesses, all small business types for which I am 
certified.

    I would like to speak on the challenges and successes I 
have experienced since founding SRE in 2007. First, I will 
speak about access to capital. Second, I will speak on small 
business programs and how they have influenced my business both 
positively and negatively. Third, I will speak about being a 
Woman owned small business who also happens to be A Service 
Disabled Veteran.

    1. Access to Capital

    I started SRE in 2007, with $10,000, I was and still am, a 
single Mother with no access to any other capital. I have no 
husband or any family with money. I left a job making over 
$100,000 per year to live near or below poverty level for 
nearly 5 years. During this time, I cashed in all of my 401ks, 
deferred all of my student loans, and prayed I could feed my 
son Cody and keep our house. During this time my Mom and 
Stepdad agreed to put a second mortgage on their home to try 
and help me stay afloat. In 2009 I was ready to go back to work 
for a company as I could no longer pay my mortgage with one 
credit card and pay that credit card with another and on and on 
until I had maxed out several cards and the line of credit 
which used my disabled, retired parent's home as collateral. I 
was offered and accepted a full-time job with a company but a 
few days before I was scheduled to start they asked if I would 
work as a 1099 consultant instead. I agreed as long as the 
contract was with SRE. I made enough money in four months to 
pay my bills for about six months. During that time, I 
submitted and received my 8a/small disadvantaged designation 
and that September landed 2 small prime contracts with the IRS.

    Soon after that I received a significant prime contract 
with Defense Threat Reduction Agency through my contacts and 
relationships I had been fostering for 5 years. Once I received 
that contract--ONLY THEN--could I get a line of credit through 
the business with SBA backing under the Patriot Express Program 
(which I think is now obsolete). Only when I really didn't need 
the line of credit could I get it, because even with all of the 
guaranty programs, small businesses still have to qualify under 
a bank's underwriting guidelines.

    So, a poor, single mother from WV who served in the 
military can only rely on a miracle to find a way to start and 
finance a business. I don't know the answer to this challenge, 
but would be happy to work with this body to work to find 
solutions.

    2. Small Business Programs

    I possess every small business designation available (with 
the exception of Alaskan Native) and here are my thoughts.

    Every program is designed to help people like me find the 
doors to open in Government contracting and they do. I'll start 
with the challenges first and then provide the positives.

    Challenge 1: The Paperwork

    The amount of paperwork required to obtain my 8a 
designation was well over 1,000 pages and was initially denied 
first because my paperwork was misplaced and a second time 
because I don't fit into one of the protected classes, despite 
overwhelming documentation and evidence. Lucky for me, SBA's 
lawyers overturned the denial because I clearly demonstrated 
Social and Economic disadvantage.

    Challenge 2: My SDVOSB and VOSB

    Designations via the Vetbiz/VIP database are equally time 
and paperwork intensive and while extending verifications for 2 
years has helped, it is still about 8-10 hours of time to 
complete and respond to questions throughout the process. That 
does not sound like a lot of time to most but as a small 
business owner, time is money.

    Challenge 3: Woman Owned Business

    Woman owned and Economically Disadvantaged Woman Owned 
designations require the same paperwork as 8a. It is somewhat 
streamlined because I am 8a, but once that expires in 2019 I 
will spend 20 hours gathering all of the information as 
required.

    Challenge 4: HUBZONE Designation

    This has by far been my most challenging experience and 
along with an enormous amount of paperwork, there are also 
policies in place at the SBA that don't follow the legislation 
and made me have to have my employees work more than 40 hours a 
month (which is the law) in order to get the designation. This 
costs me approximately $360 per year per HUBZONE employee. 
Again, doesn't sound like much until you have 35% of your 
workforce costing that and it is not legally required. I am 
happy to talk about this in more detail offline.

    4. My Successes

    Thanks to these various programs and the support and 
guidance I receive from my WV SBA Office in Clarksburg WV, I 
have a line of credit, I have grown SRE to a multi-million 
dollar company and I use the HUBZone program as it was 
intended--to help disadvantaged individuals in economically 
depressed areas become trained and qualified to obtain 
sustainable jobs.

    Our HUBZone program employs 2 full-time employees in 2 
states and 12 part-time employees in an additional 3 states and 
Washington DC. Our program focuses on three populations; 
Veterans, college students, and those people in economically 
depressed areas with dying industries, such as Southern WV 
where coal mines have left 10's of thousands of families on the 
brink of financial ruin. We provide these people a job, 10 
hours per week, and work with them to develop a comprehensive 
training plan that provides both soft skills, technical skills, 
and in many cases life skills. We test their aptitude, 
personality, and interests to determine what is best for them 
and their future. During FY 2016, our HUBZone employees took 
advantage of 2127 hours of training, successfully completed 622 
courses, and earned 97 certifications. Four (4) of our 
employees are currently in college and two (2) family members 
are joining Job Corps training as a result of our HUBZone 
development program. These individuals rely on our program for 
so much more than a paycheck, and that I am very proud of. We 
also employ Veterans who are in transitional housing and 
provide them training and support throughout their transition.

    Being a Woman owned and Service Disabled Veteran owned 
Small business is an opportunity to use our nurturing hearts 
and spirits to serve others and improve our communities, our 
states, our country, and the world in which we live. I do this 
by providing jobs across 12 states, providing training and 
educational opportunities to people who may not otherwise have 
them, by providing volunteer services across the globe in the 
form of over 1,000 hours of paid time for my employees and 
nearly 1/2 million dollars in charity. I believe I have an 
opportunity and an obligation to use SRE to make the world a 
better place.

    In closing, I am thankful for all of the work our 
legislators and our Small Business Administration advocates 
have done on my behalf and others like me. Last week SRE won a 
$9 million dollar prime contract award with one of our core 
agencies and a $25 Billion dollar multiple award Indefinite 
Delivery Indefinite Quantity (IDIQ) with another core agency. 
Now my work really begins. Thank you for your service to our 
nation and your time today and God Bless America.

                                 [all]


</pre></body></html>
